CERTIFICATE OF SERVICE
I, Christina Spaulding, a member of the Bar of this Court, certify that on October
7, 2021, a copy of the Application for Extension of Time to File Petition for Writ of
Certiorari to the Supreme Court of the State of California was mailed, first class postage
prepaid, to counsel for respondent, Office of the Attorney General for the State of
California and Julia Y. Je, Deputy Attorney General, 455 Golden Gate Avenue, Suite
11000, San Francisco, California, 94102, and Julia.Je@doj.ca.gov, (415) 510-3804. I
further certify that all parties required to be served have been served.
I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct. Signed on October 7, 2021.

CHRISTINA SPAULDING
Chief Deputy State Public Defender
Office of State Public Defender
1111 Broadway, Suite 1000
Oakland, California 94607
Christina.Spaulding@ospd.ca.gov
Tel: (510) 267-3300

